July 10, 2002

KEITH STRANGE VICE PRESIDENT, SUPPLY MANAGEMENT

DAVID L. SOLOMON VICE PRESIDENT, NEW YORK METRO AREA
OPERATIONS

SUBJECT: Management Advisory – New York Metro Area Trailer Acquisition
         Requirements (Report Number TD-MA-02-003)

Background

On April 9, 2002, the Office of Inspector General (OIG) announced an audit of a
proposed New York Metro Area trailer acquisition to determine if the acquisition
would provide operational or financial benefits to the Postal Service (Project Number
02YG013TD000). The announcement responded to a congressional




                Leased trailer parked at New York Metro Area mail facility.

request asking the OIG to specifically consider comparison between existing 40-foot
trailers and their proposed 45-foot replacements.


Objective, Scope, and Methodology

The purpose of this management advisory is to notify Postal Service officials
of deficiencies we observed during preliminary analysis of the proposed
acquisition. During our preliminary work we analyzed the New York Metro
Area’s draft purchase plan for leased trailers, the Postal Service’s Purchasing
Manual, and Postal Service’s investment policies and procedures. We
interviewed senior leasing contractors; Postal Service officials at
headquarters and in the New York Metro Area; and we visited Postal Service
facilities where we interviewed Postal Service employees. Work associated
with this advisory was conducted from April through July 2002 in accordance
with the President’s Council on Integrity and Efficiency, Quality Standards for
Inspections. We discussed our conclusions and recommendations with
appropriate management officials and included their comments, where
appropriate.


Observations

Improperly Developed Requirements. The New York Metro Area did not
properly justify trailer requirements before submitting their draft purchase
plan to Postal Service Headquarters. Postal Service policy specifically
requires the sponsoring organization to justify the need for an acquisition,
either as an “economic opportunity,” or as “a means of sustaining existing
postal operations.” The policy further requires the sponsor to consider
anticipated operating needs and other evaluation factors like equipment
useful life, sources of supply, and equipment quality. The policy states that
requirements and related analysis must be documented in sufficient detail to
enable approving officials to make an informed decision. Postal Service
officials we spoke to reinforced this policy, explaining that the New York
Metro Area was responsible for properly developing and documenting trailer
requirements before submitting an acquisition request to headquarters. Our
preliminary work revealed the New York Metro Area did not properly analyze
or document trailer requirements or the underlying operational need. New
York Metro Area officials explained they were requesting 1,250 45-foot
trailers and 250 53-foot trailers; however, their draft purchase plan did not:

.      •     Analyze the Postal Service operations for which the trailers were
required.
.      •     Identify the number of trailers necessary to accomplish required Postal
Service operations.

.       •      Analyze why 45-foot and 53-foot trailers were needed, or why 40-foot
trailers were not.




                                           2
•       Link various trailer sizes to differing operating considerations like load density
requirements, maneuverability, or transportation and traffic regulations.
.       •       Balance the potential short-term economic opportunity of cheaper,
older trailers, against the potential benefits of more costly, newer trailers with a
longer expected life.

Documentation we obtained from Postal Service officials indicated the trailer
acquisition could cost the Postal Service as much as $30 million. Since the New
York Metro Area did not properly analyze or document trailer requirements, or the
underlying operational need, Postal Service officials have insufficient information to
make an informed decision on this acquisition.


Recommendation

We recommend the vice president, New York Metro Area Operations:

   1. Properly analyze operating conditions and trailer requirements in accordance
       with Postal Service investment policies and procedures, prior to submitting an
       acquisition request to Postal Service Headquarters.


Management’s Comments

Management agreed with the intent of our recommendation. They stated they would
perform an analysis consistent with Postal Service policy and would work with Postal
Service Headquarters throughout the acquisition process. Management’s comments,
in their entirety, are included in the appendix of this report.

Recommendation

We recommend the vice president, Supply Management:

   2. Not approve the New York Metro Area acquisition request until proper
       analysis and supporting documentation are submitted and reviewed by
       headquarters.


Management’s Comments

Management, agreed with the intent of our recommendation. Management
stated that they would work with the New York Metro Area to identify
requirements and develop a purchase plan that meets the area’s needs and
protects the business interests of the Postal Service.




                                            3
Evaluation of Management’s Comments

Management’s comments are responsive to our recommendations. We
believe management’s compliance with Postal Service policy should correct
the issues we identified.

The OIG considers recommendations 1 and 2 significant and, therefore,
requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action(s) are completed. These
recommendations should not be closed in the follow-up tracking system until
the OIG provides written confirmation that the recommendations can be
closed.

We appreciate the cooperation and courtesies provided by your staff during
the review. If you have any questions or need additional information, please
contact Joe Oliva, director, Transportation and Delivery, at (703) 248-2100,
or me at (703) 248-2300.



Ronald K. Stith Assistant Inspector General
for Core Operations

cc: Paul E. Vogel Henry A. Pankey
     Anthony M. Pajunas Michael F.
     Spates
     J. Dwight Young
     Susan M. Duchek




                                         4
APPENDIX. MANAGEMENT’S COMMENTS




               5
6
